<html>
<title> - HEARING ON THE MANAGEMENT OF ASBESTOS AND HAZARDOUS MATERIALS AT THE SMITHSONIAN INSTITUTION</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
 HEARING ON THE MANAGEMENT OF ASBESTOS AND HAZARDOUS MATERIALS AT THE 
                        SMITHSONIAN INSTITUTION

=======================================================================

                                HEARING

                               before the

                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                 HELD IN WASHINGTON, DC, APRIL 1, 2009

                               __________

      Printed for the use of the Committee on House Administration


                       Available on the Internet:
   http://www.gpoaccess.gov/congress/house/administration/index.html


                  U.S. GOVERNMENT PRINTING OFFICE
50-806                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                   COMMITTEE ON HOUSE ADMINISTRATION

                ROBERT A. BRADY, Pennsylvania, Chairman
ZOE LOFGREN, California,             DANIEL E. LUNGREN, California,
  Vice-Chairwoman                      Ranking Minority Member
MICHAEL E. CAPUANO, Massachusetts    KEVIN McCARTHY, California
CHARLES A. GONZALEZ, Texas           GREGG HARPER, Mississippi
SUSAN A. DAVIS, California
ARTUR DAVIS, Alabama

                           Professional Staff

                 S. Elizabeth Birnbaum, Staff Director
               Victor Arnold-Bik, Minority Staff Director


   MANAGEMENT OF ASBESTOS AND HAZARDOUS MATERIALS AT THE SMITHSONIAN 
                              INSTITUTION

                              ----------                              


                        WEDNESDAY, APRIL 1, 2009

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The committee met, pursuant to call, at 1:00 p.m., in Room 
1310, Longworth House Office Building, Hon. Robert A. Brady 
[chairman of the committee] presiding.
    Present: Representatives Brady, Lungren, and Harper.
    Staff Present: Liz Birnbaum, Staff Director; Jamie Fleet, 
Deputy Staff Director; Matt Pinkus, Professional Staff/
Parliamentarian; Kyle Anderson, Press Director; Kristin 
McCowan, Chief Legislative Clerk; Matt DeFreitas, Staff 
Assistant; Peter Schalestock, Minority Counsel; Karin Moore, 
Minority Legislative Counsel; and Katie Ryan, Minority 
Professional Staff.
    The Chairman. Good afternoon. I would like to call the 
hearing on the House Administration to order, and thank all of 
you for coming and participating.
    The subject of our oversight hearing today is management of 
asbestos and hazardous substances at the Smithsonian Institute. 
This is our first hearing on the Smithsonian in the 111th 
Congress. We will receive testimony from the Secretary of the 
Smithsonian Institute and others on the Smithsonian's effort to 
control asbestos and other hazardous substances at its 
facilities.
    A story in The Washington Post on March 15th raised issues 
about the Smithsonian practices, focusing on the National Air 
and Space Museum, which is the most visited museum in the 
Smithsonian complex, indeed in the world, with more than 6 
million visitors in the year 2007. We are concerned about how 
well the Smithsonian has been complying with Federal laws and 
best practices in controlling asbestos and other hazardous 
substances that the staff and the visiting public may be 
exposed to.
    Millions of visitors to the Smithsonian facilities and the 
thousands of people who operate and work in and around the 
buildings deserve to know whether the Institute is ensuring 
their well-being. We are also concerned about how well and how 
frequently the Smithsonian communicates with the staff about 
the exposure to and control of hazardous substances. What is 
the expected role of the staff in controlling and abating 
hazardous materials, and how good is their training? We would 
also like to know whether the Smithsonian standards are uniform 
or vary from museum to museum. How can the Institution's 
performance be improved?
    In the last Congress, the committee held an oversight 
hearing on the Smithsonian governance practices. During that 
period, the Smithsonian was attempting nothing less than a 
cultural revolution. An insular management style, presided over 
by a part-time Board of Regents, supplemented by reckless 
fiscal practices by top officials and inconsistent personnel 
policies is being transformed into a full-time professional 
operation worthy to receive Federal funds. This transformation 
is still a work in progress. I hope to hear--and I welcome and 
thank Secretary Clough--that improving handling of hazardous 
materials will be another product of the management changes.
    The committee has also extended its oversight over the 
appointment of nine citizen regents who serve on the Board of 
Regents for up to two consecutive 6-year terms. The committee 
has two such citizen regent nominations pending before that at 
this time, and we have postponed action on them until we could 
conduct this oversight hearing.
    I thank the ranking member, Mr. Lungren, for being here 
again and showing up and letting us get this hearing under way. 
And I also thank Secretary Clough for being here.
    I need to make a little point that a lot of this is being--
you are here receiving this; you weren't there when this 
happened or anything has happened in the past. You were a part 
of my statement that says we are transforming, and we feel 
really confident and good about the fact that this has been 
transformed. The whole operation, I think, from the top down, 
has been revamped, so to speak. And you are now at the helm, 
and we are confident that any problems that existed that were 
in the past will be rectified. We have been monitoring; so far, 
they have been rectified. You have been open with us. There has 
been constant cooperation between our staff and your staff, 
ourselves and yourself, and we do appreciate that.
    I would now like to recognize Mr. Lungren for any opening 
statement he would like to make.
    Mr. Lungren. Thank you very much. I thank the chairman for 
calling today's hearing regarding the presence of asbestos at 
the Smithsonian Institution.
    And while we know the mission of the Smithsonian is 
primarily to serve as our Nation's premiere cultural 
institution, the men and women who make it possible to deliver 
on that mission should not be forgotten in the process. There 
are many competing priorities that exist in running an 
organization that is the size and scope of the Smithsonian, but 
the institution cannot lose sight of its responsibility to 
ensure that the handling of hazardous materials buried deep 
within the museums' walls is conducted with a full 
understanding of potential health and safety implications.
    As we have seen with past cases of exposure to harmful 
elements, these problems do not simply go away because we wish 
them to, and they must be continually addressed through an 
aggressive management plan. We must anticipate these issues and 
take decisive actions once evidence of hazardous materials in 
the environment becomes apparent, in order to protect the 
employees and contractors who may be exposed to these elements.
    One way to prevent long-term exposure to these hazardous 
materials once they are found is to increase communications 
between the safety officials within each museum, as well as 
among the museums that make up the Smithsonian Institution.
    In reviewing the timeline of events related to asbestos 
issues at the Smithsonian's National Air and Space Museum, it 
appears that asbestos awareness training sessions were neither 
as comprehensive nor as regular as they should have been. Given 
the staff turnover that would have likely occurred at the 
museum since the last comprehensive study was conducted in 
1992, the deficiencies in awareness and training for employees 
increased the risk of asbestos exposure.
    Now, again, Mr. Secretary, you are here as the person--I 
don't know if you are like the fellow following the elephant in 
the circus, cleaning up, and then we blame you for what you are 
cleaning up, but we do appreciate the commitment that you have 
made to understanding this issue and its importance to the 
continued operation of the Smithsonian.
    Therefore, I look forward, as does the chairman, to hearing 
from you as to what may be done to fortify communications 
protocols among museum officials to ensure that lapses such as 
those that we saw at the Air and Space Museum do not recur in 
the future, either at that facility or any other in the 
Smithsonian's jurisdiction.
    And finally, I understand that today's hearing is being 
held, in part, due to the alleged asbestos exposure of one of 
the Smithsonian's long-time employees. And while we are not 
here to discuss the merits of the particular case--we shouldn't 
interfere with a case that is going forward--whenever an 
accusation of this type is made, it is our responsibility to 
ensure that a culture of openness exists and that employees who 
act as whistleblowers are taken seriously and not subjected to 
retaliation. That message has to go out loudly and clearly.
    So I thank our witnesses for participating in today's 
hearing and look forward to their testimony.
    And, as you know, Mr. Chairman, we are probably going to 
have votes that interrupt, but we will do our best effort to be 
here for it.
    The Chairman. Thank you.
    Mr. Harper, any statement?
    Mr. Harper. No opening statement.
    The Chairman. Thank you.
    We welcome today the Secretary of the Smithsonian, Dr. G. 
Wayne Clough.
    Dr. Clough, the regents chose you last year after a 
rigorous year-long searching process. We have had the 
opportunity to talk to you several times since you took office 
last July, and I appreciate your efforts in engaging with the 
Members on a regular basis. This is your first appearance 
before the House Administration Committee, and I am pleased to 
welcome you.
    Your formal statement will be entered into the record. 
Normally, we ask witnesses to speak for 5 minutes, but we will 
not put that time limit on you. You can speak as long as you 
want.

     STATEMENT OF G. WAYNE CLOUGH, SECRETARY, SMITHSONIAN 
                          INSTITUTION

    Dr. Clough. Thank you, Mr. Chairman, and to the other 
committee members. I appreciate this opportunity to testify on 
behalf of the Smithsonian.
    Let me begin by assuring the committee as well as the 
American people that all of our museums are safe, they are 
open, and they are free, as always. And that is one of the 
reasons we have a very large attendance at the Smithsonian.
    We have never had any indication of public asbestos hazard 
in any of our museums. The safety of our employees, volunteers, 
and visitors remains our highest priority. I believe the 
Smithsonian has an excellent and an improving safety record. As 
you can see from the chart over here that I will refer to 
shortly, we work diligently to comply with OSHA and EPA 
regulations and standards.
    Based on our calculations, the Smithsonian's total 
recordable injury rate is below the Bureau of Labor Statistics' 
national average of all museums, historical sites, and similar 
institutions. For the past 4 years, we have been below that 
national average benchmark by more than 60 percent. And for the 
same time period, we are 45 percent below the Federal 
Government average. As you can see from the chart and as I just 
indicated, where these rates have dropped well below the 
benchmarks.
    Now, there are reasons, I think, to be pleased with the 
progress that is being made. But as pleased as we are, our goal 
is zero injuries for our workers. And we will continue to seek 
to improve, I promise you that. And I have submitted details of 
our safety programs that are intended to accomplish this to the 
committee in the written testimony.
    We are certainly concerned about Mr. Pullman's health and 
well-being, and we take his complaint seriously. I assure you, 
he has been and will continue to be treated fairly and 
equitably. Any worker at the Smithsonian has the right to call 
attention to safety issues on the job and always will, and that 
is written clearly and plainly in our policy.
    I know something from personal experience about what hard 
work is. My dad never went to college. He was a construction 
worker and traveled the country installing industrial HVAC 
systems for York Air Conditioning, around the Southeast 
particularly. He broke his leg and never fully recovered from a 
fall off a ladder.
    I worked my way through college as a surveyor for the 
railroad company and a delivery guy for Sears. As a civil 
engineer, I have worked on design and construction of major 
infrastructure projects all around the country. And I have 
spent time on underground projects, which is one of my 
specialties, with the ``sandhogs.'' I respect hard work, and I 
value the people who do it.
    I am also a father and a grandfather. My wife, my children, 
and my grandson and I visited the Air and Space Museum within 
the past 2 months, and I would visit them again tomorrow and 
the next day--or any of our museums. They are all safe.
    We do conduct and have improved our safety and health 
oversight operations and have an extensive safety and health 
communications and training program, which I believe, based on 
the studies done so far, has steadily improved, particularly 
over the past 3 or 4 years.
    Every year, in each Smithsonian museum and facility from 
here to Hawaii, from Boston to Panama, we conduct annual 
comprehensive evaluations of those facilities. Reports are 
issued in which we assess fire, occupational safety, industrial 
hygiene, radiation safety, environmental management and 
compliance requirements, including asbestos. We track mistakes 
and have a track record of implementing solutions. A lot of 
progress has been made; work needs to continue.
    We also have a targeted training program for staff and 
volunteers working with hazardous materials in hazardous areas. 
In addition, we have safety coordinators for every building, 
and they meet every 2 months to discuss safety issues, 
including asbestos, to try to fix any problems. That is why we 
believe the situation we are here to discuss today is an 
exception. It was an oversight on our part, we admit that, and 
it has since been corrected.
    To respond to the concerns about asbestos exposure and 
preclude any future problems, particularly on my watch, I have 
directed the following steps be taken:
    First, a complete review of our asbestos safety policies 
and procedures, to include interviews with workers and 
oversight by an independent, outside workforce safety expert. 
This will be under-way shortly. The expert will report directly 
to the Office of the Secretary. And to ensure candor, our 
workers are going to be free to make anonymous comments.
    Second, to validate the effectiveness of our annual 
environmental safety assessments--which, as I described, seem 
to be in good order--we will conduct an independent review of 
these processes. Again, the independent expert will report 
directly to the Office of the Secretary.
    Third, for all current and former Air and Space Museum 
employees who believe they might have been exposed to asbestos 
in the performance of their work, we will provide free medical 
screenings as well as consultation with a known outside expert.
    Fourth, asbestos safety will be an agenda item at every 
bimonthly meeting of our safety coordinators, who will keep 
museum directors apprised of the safety issues as they arise.
    Fifth, in addition to the carpenters, plumbers, welders, 
pipefitters, electricians, and others, who have already 
received mandatory asbestos safety training, all exhibits 
production employees have been mandated to undergo similar 
training.
    Sixth, any current or former Smithsonian employee or 
volunteer concerned about asbestos-related disease is welcome 
to visit our health service office, free of charge, to discuss 
any questions. And we are going to bring in a medical expert to 
provide a lecture on these issues for all employees that will 
be made available on our intranet.
    As we know, asbestos is a challenge to many in the public 
and private sectors, including the Federal Government and its 
many buildings in the Nation's capital. The Smithsonian owns or 
leases hundreds of buildings, in total about 12 million square 
feet of space. Some of our buildings are new, the oldest is 
more than 150 years old, and more than half are over 25 years 
old. My office is in the Smithsonian Castle, which was 
completed in 1855.
    Since 1990, the Smithsonian has spent more than $15.5 
million in asbestos abatement processes. And since 2000, the 
Smithsonian has spent more than $170 million in safety and 
security improvements to protect visitors, volunteers, and 
workers. So I want to assure you and the public that our 
museums are safe. We have 6,000 employees and an equal number 
of volunteers. More than 25 million visits, in total, are made 
to our museums annually. The safety of all of these individuals 
is our primary concern.
    We will continue to listen to our workers, visitors, and 
oversight committees and respond to all safety concerns as 
quickly as possible. We will take the actions that I have 
indicated, and they will be done promptly.
    Again, thank you for this opportunity, and I am pleased to 
answer any questions.
    I have several other colleagues from the Smithsonian who 
work in the safety area and the facilities area. In particular, 
General Jack Dailey, U.S. Marine Corps, retired, who is 
director of the Air and Space Museum, is also here to answer 
questions.
    Thank you very much.
    [The statement of Dr. Clough follows:]

    [GRAPHIC] [TIFF OMITTED] T0806A.001
    
    [GRAPHIC] [TIFF OMITTED] T0806A.002
    
    [GRAPHIC] [TIFF OMITTED] T0806A.003
    
    [GRAPHIC] [TIFF OMITTED] T0806A.004
    
    [GRAPHIC] [TIFF OMITTED] T0806A.005
    
    [GRAPHIC] [TIFF OMITTED] T0806A.006
    
    [GRAPHIC] [TIFF OMITTED] T0806A.007
    
    [GRAPHIC] [TIFF OMITTED] T0806A.008
    
    [GRAPHIC] [TIFF OMITTED] T0806A.009
    
    [GRAPHIC] [TIFF OMITTED] T0806A.010
    
    [GRAPHIC] [TIFF OMITTED] T0806A.011
    
    [GRAPHIC] [TIFF OMITTED] T0806A.012
    
    [GRAPHIC] [TIFF OMITTED] T0806A.013
    
    The Chairman. Thank you, Mr. Secretary.
    Mr. Secretary, you said all this training started. When did 
it start? On your watch, since you started?
    Dr. Clough. No. The training process overhaul, I would say, 
was begun in about 2006, and in 2007 a new program was 
instituted. So that started with the development of a new 
safety manual and set of policies, and it is a very large 
document, but that was put in place. Building coordinators were 
identified. They began to have these regular meetings that I 
referred to and, gradually, that branched out into a broader 
set of policies for discussion of issues with employees.
    The Chairman. But prior to 2006, there wasn't that 
intensive training?
    Dr. Clough. There was a different kind of training, and I 
am not familiar with that, but we do have people here who can 
help you with that. But, at that point, that is when you begin 
to see significant improvement in our safety processes.
    The Chairman. You see, the contractors are trained 
themselves, especially the pipefitters, steamfitters. They deal 
with this all the time, and they have their own training. But I 
am more concerned about the staff and some things that are in 
the building or have been in the building for a long period of 
time that they don't know about, the asbestos. You know, it is 
something that is extremely dangerous, knowing myself, being in 
the construction field. And even though the contractors, most 
of them, all do have their training, they don't know until they 
actually come across it, you know. And the men and women that 
have been working there all those years maybe don't know it 
until there is some work being done.
    I would hope that you would look at some of those issues, 
you know, inspect your buildings and have the staff have as 
much knowledge about the asbestos as a contractor would because 
they are trained for it. And include that in your training, and 
maybe even take a look at some of these buildings that have not 
been broken into, the walls. You don't know if there is 
asbestos beyond these walls until you put a hammer through it.
    A lot of it is encapsulated anyway, maybe not properly, but 
it is encapsulated and it does leak out. And that is not an 
excuse why we shouldn't encapsulate it even further. But if you 
could have some of the staff people that are there all the 
time, train them, let them be knowledgeable in case they run 
into something and protect them.
    Dr. Clough. That is a good point. There is a training 
program for employees. You start with a very intensive program 
for a small number of people who literally are on the site of 
asbestos abatement activities, because we have some sort of 
renovation going on in some museum all the time. So there is a 
set of our employees who are certified to be there and to work 
under those circumstances and work with certified contractors. 
Of course, contractors, to work at the Smithsonian, have to be 
certified to deal with asbestos.
    So we have that group of employees who have mandated 
training. Now we have moved that mandated training up to 
include another category of employees that we did not include 
before, and that would be those who work in exhibits. So they 
don't do the heavy work, they are not working necessarily 
directly with contractors, but they do, indeed, come in contact 
with the walls and with facilities attached to the wall. And 
those people will get mandated training from now on.
    We, in addition, have a Hazardous Materials Awareness 
briefing process for our employees, particularly if we know we 
are going to do work in a museum. And that happens from time to 
time. So they will be given the opportunity to come into a 
briefing to understand what will happen to that building and 
how they should protect themselves should there be an issue and 
what we will do to protect them, what measurements we will 
take, what actions we will take should there be an incident, 
those kinds of things.
    So that level of training and that level of briefing has 
been ramped up. In addition, on our Web site there is always a 
statement about these processes and procedures. So that has 
been improved, as well.
    The Chairman. Most of this current focus is on the Air and 
Space Museum. Are you also having this training and all this 
letting the employees be knowledgeable with what their 
surroundings are in all the other museums also?
    Dr. Clough. Every one of the museums, as well as all the 
other facilities. As I mentioned, we have facilities in a 
number of different countries as well, and a number of 
different locations. And in all those cases, this information 
is available, that level of training is made available to them.
    The Chairman. Your contractors--I know you have some 
special big contracts, I am sure you have some emergency 
contractors, but are they supervised by staff?
    Dr. Clough. I am sorry. Say that again?
    The Chairman. The contractors themselves doing work, who 
are they supervised by?
    Dr. Clough. The contractors, their services--if I get this 
correct, let me answer it, and then you can tell me if I got 
it. The contractors obviously go through a bid process to work 
for us. But when you say ``contractors,'' I may have 
misunderstood----
    The Chairman. We have some emergency contractors that are 
on a certain list, I am sure, when an emergency comes up, you 
can't put out the bid, when you've got a pipe leaking flooding 
the building----
    Dr. Clough. We do, we do. We have contractors who we work 
with regularly who do monitoring for us and who come in and do 
safety work for us and prepare for abatement processes with us 
at all times.
    And then, in addition, when we contract with a contractor, 
they have to be certified that they are prepared to deal with 
asbestos issues.
    We have a study that was done back in the 1990s that you 
referred to that identified the likely location of asbestos in 
museums. We are in the process of updating that study because, 
as a result of the $15.5 million that we used in abatement, we 
took out a lot of asbestos. And so we are documenting now where 
that no longer exists and where the likelihood still exists 
that it would be there.
    And so, when we contract with someone, they are informed 
about that information that we have, as to where they might 
encounter asbestos.
    The Chairman. So are you telling me that contractors, all 
staff employees, people that are supervising contractors, all 
of them will have this--contractors, more or less, have the 
knowledge in their own right, but they can also come into these 
training sessions, and all your employees, all of them, even 
though they are exhibitors, they are going to be trained too? 
Because you never know when you bump into asbestos with an 
exhibit that may have hit a wall or something, or there could 
be asbestos in the building and they don't even know about it. 
They are all being trained? You are going to be training 
everybody that walks into that building so we can secure the 
safety of these people coming in?
    Dr. Clough. That is correct. As I mentioned, the group that 
was left out in the last category at the Air and Space Museum 
were exhibits people. And those are folks who put up exhibits 
but don't necessarily operate heavy machinery, that kind of 
thing. That group of people was not included in the mandatory 
training.
    The Chairman. Okay. Thank you, Mr. Secretary.
    Mr. Lungren.
    Mr. Lungren. I think we just had a call for votes, so let 
me just be very, very quick on this.
    Mr. Secretary, can you tell us how you communicate to your 
employees when any asbestos work is about to begin? Do you send 
e-mails out? Is there official notification? How do you make 
sure it is done, that sort of thing?
    Mr. Clough. There is a process that we follow now to let 
people know that there will be work in a museum. Obviously if 
it is a minor project, like just putting up a new exhibit, then 
the public is prohibited from accessing that exhibit, so there 
is no access by the public at all times. If it is a major 
renovation project, then we literally isolate that section of 
the building to prevent people from wandering in or being able 
to access that part of the building.
    And, in addition, the employees are informed about the work 
and what will happen and how we will respond to any issues that 
we might have.
    Mr. Lungren. How do you know they are informed?
    Dr. Clough. As I mentioned, we are bringing in an 
independent consultant, who will report to the Office of the 
Secretary, who will survey our employees and ask them if they 
feel they have been properly informed. Although we think we 
have pretty good processes in place, I am going to take a 
second look at it, and we are going to ask them, and they can 
respond anonymously if they think they have not been well-
served. And we will look to improve that process.
    Mr. Lungren. Now, you were chosen in this spot after--you 
had a tough assignment there at Georgia Tech, didn't you? I 
visited down there, actually. It was a good night. Notre Dame 
went down there and played them a couple of years ago.
    Dr. Clough. Oh, I see. It was a close game, if I remember.
    Mr. Lungren. It was. In fact, we had to come from behind. 
And, boy, it was hot and humid there, but I enjoyed it, and 
thank you for the hospitality then.
    Then you had all these different priorities; you had 
fundraising, you had academic awareness, you had faculty, all 
that sort of thing. Right now you have fundraising, you have 
governance, research, education, et cetera. Where does safety 
line up with those priorities?
    Dr. Clough. Well, safety is one of those issues you always 
have to keep in front of you. And that is why your processes 
have to be good, to constantly bring safety up to the fore. 
Another issue like that is diversity. You have to bring it up 
because it tends to fall off the table if you are not careful 
because there are so many daily things that get in your way.
    And so it is important for us to have a process that brings 
that to the fore in every way. And I am committed to see that 
happen. The folks who are behind me here at the Institution are 
committed to seeing that happen. And I think, as I look at the 
Smithsonian, it is an institution with many moving parts. It 
has had a history of almost independence of some of these 
units, because of the historical way they developed. And it is 
time for us now to recognize that we need a coherent, 
consistent approach to all these issues. So we are trying to 
ensure that we have a centralized place where we can collect 
information and we can remind ourselves of these kinds of 
issues.
    Now, the person who works with our facilities and is in 
charge of all of those things, Alison McNally, is in my 
cabinet. And so, each cabinet meeting, she will be expected, if 
there are any kind of issues, to bring these things to us at 
that point.
    Mr. Lungren. Thank you very much, Mr. Secretary.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Harper.
    Mr. Harper. Thank you, Mr. Chairman.
    There are 22 buildings in the Smithsonian that work as 
museums; is that correct?
    Dr. Clough. We have 19 museums and the National Zoo, but 
there are over 700 buildings, structures and leased spaces in 
total.
    Mr. Harper. Okay. The ones that people visit as museums, 
how many of those would be asbestos-free, that people go to 
visit on the Mall? Do all of them contain asbestos materials?
    Dr. Clough. No. And I might get a little backup on this. 
But I would say any building built recently would not have 
asbestos in it. It is more the older buildings, when people 
didn't know the hazards of asbestos, so they put asbestos in as 
insulation around the pipes, in the tapes that they used and, 
in the case of the Air and Space Museum, with some of the 
masking material that they used on the drywall joints.
    Mr. Harper. What process do you have where you notify 
employees that work is going to be done? What is that process?
    Dr. Clough. The process would be, again, that we have 
briefings for anyone who we think will come into contact with 
these materials, to have broad information briefings for anyone 
who wants to learn about these materials. And if we are going 
to start a renovation project in a building, all of the 
building employees would be informed of this.
    You start with those who do this work on a regular basis. 
And those have traditionally had mandated training. It is a 
small number of people who do this on a regular basis. Keep in 
mind that we have hundreds of contract personnel who come to 
the museum, as well, and do work for us.
    Mr. Harper. So if you are going to do the work, then every 
employee will know in some form that that is going to be done.
    Dr. Clough. That is correct, in that building, if they are 
in any way impacted by it.
    Mr. Harper. Since Mr. Pullman's news came to light, have 
you had other employees--or, tell me how many employees have 
come forth with similar concerns since him.
    Dr. Clough. No one has yet come forth with an explicit 
health issue. There have been a number of people who have said, 
``I wonder if there may be something in my background that I 
should be concerned about.'' And that is why we have these free 
consultations they can go to and get health screenings and get 
health advice on these issues.
    Mr. Harper. Have you identified any other material besides 
asbestos that could be considered a hazardous material in these 
buildings?
    Dr. Clough. There are. And lead is one of those, as you 
know, in the older buildings, in the paint and sometimes in the 
pipes. And so lead is an issue for us.
    And at the Smithsonian, because we are a scientific 
institution, we have storage of materials like alcohol for 
specimens. And we have taken great precautions with that 
alcohol to move it off the Mall, as much as we can, into some 
of our collection centers out in Maryland and to put that into 
a protective facility.
    Mr. Harper. Do you make an effort to do some of the 
necessary repair work that has to be done from time to time, to 
do that after museum hours?
    Dr. Clough. Oh, yes, absolutely, as much as possible. And 
obviously if it is a major project, we are going to seal it 
off.
    Mr. Harper. And the policy book that you indicated that was 
a large policy book, I assume there is just a portion of that 
that deals with safety issues.
    Dr. Clough. Yes.
    Mr. Harper. And is every employee required to read that? Or 
is it just a reference guide that they can read if they want to 
but they are not required to?
    Dr. Clough. Well, that is a very good question. We already 
are getting much more rigorous about who is mandated to go 
through those processes and be briefed. And, for example, it 
will include all exhibition people in the future.
    Now, at the Smithsonian, there are different categories of 
exhibition people--not to bore you with too many details, but 
there is Exhibits Central, which does much of the exhibits work 
at our museums. It just turned out, at Air and Space, they had 
their own exhibits group, so it was a little bit of a unique 
category. And Exhibits Central has always been part of the 
asbestos safety training.
    Mr. Harper. Would it be a problem to say that every 
employee should read--I am sure it is just a relatively small 
portion that would deal specifically with safety issues. Would 
there be a problem to say every employee is required to read 
that and sign something that says they have read it and are 
familiar with that? Would that be a hardship or a problem?
    Dr. Clough. That is a good suggestion, and let me take a 
look at that. I know the safety manual is about that. But there 
are certain portions you would like everyone to have a look at 
and to understand. So maybe we can condense it in some way to 
that small amount of material that really affects everybody.
    Mr. Harper. Thank you very much.
    I yield back.
    The Chairman. Thank you.
    Any other follow-up?
    Thank you, Mr. Secretary. We appreciate your appearing in 
front of us.
    And we do need to go vote. It will probably be about an 
hour. I know maybe your schedule may be full. If you can stay, 
that would be fine. If not, we would ask maybe some of your 
staff people can stay in case there may be some questions 
through the other panels.
    Dr. Clough. I will be glad to do that.
    The Chairman. So thank you all. And we are going to adjourn 
for at least an hour.
    Dr. Clough. Thank you.
    [Recess.]
    The Chairman. I would like to call our committee hearing 
back in session, and thank you all for your patience. And sorry 
that we had to break away, but we live our life through a bell, 
and they didn't like living it through bells, so we changed it 
to buzzers. Now we live our life by the sound of a buzzer, then 
we had a round vote, but I thank you all for being here. And I 
thank the panel.
    First, James August was previously Director of Occupational 
Health and Safety Programs for the American Federation of 
State, County and Municipal Employees, AFSCME. He is a Senior 
Policy Adviser to the Lippy Group, an occupational safety and 
health consulting firm.
    Daniel O. Chute is President of Atrium Environmental Health 
and Safety Services, which provides technical direction, 
project support, field investigations, and subject matter 
expertise on environmental health and safety matters for 
industrial and commercial clients.
    Gary Urban is a Certified Hazardous Materials Manager and 
Vice President--Consulting Services of Aerosol Monitoring & 
Analysis, Inc. He is currently under contract with the 
Smithsonian and is in the process of conducting environmental 
assessments in 17 of the Smithsonian Museum buildings.
    William M. Brennan is Executive Vice President of Turner 
Construction Company that has worked on construction projects 
at the Smithsonian, including remodeling and asbestos abatement 
at the National Museum of American History Star Spangled Banner 
exhibit which opened this fall.
    We thank you for your participation, and we would ask you 
to just push your mikes closer, push your button, and, Mr. 
August, we will start with you.

 STATEMENT OF JAMES AUGUST, SENIOR POLICY ADVISER, LIPPY GROUP

    Mr. August. Thank you, Mr. Chairman. I will attempt to 
answer this committee's question, or at least draw reasonable 
conclusions that can be substantiated on the available 
information. I did not speak to any of the individuals involved 
as to whether the Smithsonian's treatment of asbestos and other 
hazardous materials at the National Air and Space Museum put 
employees and visitors in an unsafe environment.
    Before I go into my conclusions I want to state briefly a 
few things about asbestos to put this discussion into context. 
First of all, all forms of asbestos, including chrysotile, 
which is the form that was found in the drywall compound 
throughout the Smithsonian, is a serious hazard. All forms of 
asbestos cause cancer and other serious diseases.
    Secondly, there is no safe level of exposure--legal does 
not mean safe. There is no established safe threshold of 
exposure to asbestos. OSHA stated as much when it issued its 
proposed rule in 1990, and it said that continued exposure to 
asbestos at the permitted level and action level presents 
residual risks to employees which are still significant.
    Third, the key to protecting building service workers and 
by extension everybody else in the building, staff and 
visitors, is to have a program that starts with inspection, 
communication of hazards, and procedures in place that prevent 
the uncontrolled disturbance of asbestos.
    And lastly, there is a very, very detailed legal framework 
established by OSHA and the Environmental Protection Agency, as 
well as guidance, that goes back to the 1980s. And I am a 
dinosaur that was involved in most of the develop of that, so I 
have firsthand experience of how it came to be and all the hard 
lessons that were learned in order to realize how this 
hazardous material needed to be handled to prevent unnecessary 
exposure.
    I have five opinions to offer about the asbestos situation 
at the Air and Space Museum. First, it certainly appears that 
there have been serious deficiencies in the implementation of 
the Smithsonian's policies for addressing the presence of ACM 
over a prolonged period of time. Based on the asbestos survey 
performed by Versar, the Smithsonian knew in 1992 at the very 
latest that the Air and Space Museum was constructed with ACM. 
They identified several types of building materials, including 
the drywall joint compounds, throughout the building, and they 
classified it as Code E, to be monitored for change in their 
condition and recommended, ``maintenance and custodial 
personnel should be alerted to the presence of this material 
and instructed not to disturb it.''
    Chapter 22 of the Smithsonian Institution's safety policy 
contains a very comprehensive program to protect everybody from 
asbestos. However, it appears there has been a very, very 
serious disconnect between the stated policies and the actual 
practices at the NASM for a very long time.
    According to the March 15, 2009, Washington Post article 
Mr. Richard Pullman, a lighting specialist who has worked at 
the museum for 27 years, was informed by the museum safety 
coordinator during a briefing on asbestos awareness that there 
was asbestos in the museum walls. In answer to your question, 
an effective asbestos operation and maintenance program begins 
with identification of the locations of asbestos and 
notification to the employees.
    My second conclusion is that the failure to notify building 
service workers of the locations of ACM, provide training and 
equipment violate Smithsonian's policy and OSHA Regulations. 
OSHA requires wet methods, local exhaust ventilation, mini-
enclosures, respirators, exposure monitoring, all intended to, 
``minimize the exposure to employees performing the asbestos 
work and bystander employees.'' They also require 16-hour 
training for those involved in maintenance activities in order 
to do the work safely. In fact, OSHA cited the Smithsonian on 
July 8, 2008, for unsafe and unhealthful working conditions at 
the Air and Space Museum. They were cited for a failure to 
monitor workers' exposure, not notifying the employees of the 
presence and locations of the ACM and a lack of proper 
training.
    My third conclusion is that building service workers likely 
have been repeatedly exposed to significant asbestos exposure 
as a result of uncontrolled disturbances of ACM. The exposure 
of building service workers is episodic in nature. To determine 
that exposure it is necessary to conduct personal air sampling 
while the maintenance activity is taking place. Personal air 
sampling involves the worker wearing a pump on his or her waist 
that draws air through a tube with an opening near the workers 
breathing zone, the mouth and nose. Asbestos fibers that are in 
the air are collected in the cassette and then sent off to a 
laboratory for analysis. I have not seen any personal air 
sampling data if it exists that was conducted during 
maintenance activities that disturbed ACM at the Smithsonian. 
However, studies that I am familiar with show that maintenance 
work does disturb ACM, and that in the absence of controls have 
shown significant exposure during such activities.
    The only sampling data I have seen are the measurements 
obtained by Aerosol Monitoring Analysis on December 9th and 
11th of 2008. They performed a different kind of monitoring 
called ambient air monitoring, which means sampling of an area, 
and did so in 25 places at the museum. These data are 
irrelevant for making any determination of building service 
workers' exposure to asbestos and should not be used to 
reassure the workers about the hazards that might be present. 
The eight-hour samples were conducted between approximately 
6:00 p.m. and 2:00 a.m., when the museum was closed. There is 
nothing in AMA's narrative that indicates that any maintenance 
work involving the disturbance of ACM was being conducted at 
the time the samples were collected. And since the museum was 
closed, potential air movement generated by a crowd of visitors 
was also probably diminished.
    OSHA requires clearance sampling after asbestos work is 
performed. This entails utilizing aggressive air sampling to 
create a worst case scenario before the plastic containment 
area is disassembled. The air is stirred up with blowers to 
make asbestos fibers that may have settled become airborne. 
Only when asbestos levels are below established exposure limits 
while aggressive sampling is performed is an area considered 
clean and safe to be reentered without utilizing protective 
measures. Taking passive ambient air samples in areas where 
there is settled dust and no work or other activities being 
performed that could disturb the dust, therefore fails to yield 
useful determinations of workers or anybody else's exposure.
    Rather than drawing comfort from AMA's results I find the 
situation quite disconcerting. Sampling was done in areas where 
there was an accumulation of settled dust, which raises 
disturbing questions such as: For how long and how often have 
employees and contractors conducted uncontrolled disturbances 
of ACM? How long has the asbestos containing dust and debris 
been accumulating? Have ordinary vacuums and brooms been used 
to clean up dust and debris instead of HEPA vacuums and wet 
methods as prescribed by law?
    My fourth observation is that the diagnosis of asbestosis 
of a long-term employee whose jobs involved the disturbance of 
drywall joint compound that contained asbestos should be 
regarded as a sentinel health event, and medical screening 
should be immediately conducted to identify the extent, if any, 
of asbestos-related signs, symptoms or disease among other NAS 
employees and probably other Smithsonian facilities.
    Mr. Pullman's claim for workers compensation is under 
appeal, and I am not commenting on the validity of that claim. 
I am not familiar with Mr. Pullman's occupational or exposure 
history. However, the diagnosis of asbestosis in a 27-year 
employee whose duties involved the uncontrolled disturbance of 
ACM with saws and drills should be an impetus to determine if 
other employees are similarly affected. There are well 
established protocols for conducting medical surveillance and 
to identify individuals with these signs of disease or 
impairment.
    The last issue concerns whether the treatment of asbestos 
has put any visitors at the Air and Space Museum in an unsafe 
environment. As I have just explained, it is my opinion that 
previous activities of building service workers and contractors 
that involved the uncontrolled disturbance of ACM would have 
released fibers into the surrounding environment. There is 
insufficient data to characterize the exposure to the workers. 
Nor do I think there is any adequate data to make any 
definitive qualitative or quantitative estimates of any 
additional risk posed to visitors that resulted from the 
activities of building service workers and contractors.
    The AMA sampling data represent a snapshot of conditions 
they tested for on December 9th and 11th, and that is all they 
represent. For the reasons stated above the AMA results do not 
provide a useful assessment of worker exposure during their 
normal activities. As for exposure to visitors I did not see 
any other data to evaluate whether the sampling results were 
representative.
    Given the information I have reviewed considering the 
handling of asbestos at the Air and Space Museum, I have 
questions and concerns about possible exposure situations to 
asbestos in other Smithsonian facilities. Many of the 
Smithsonian buildings are much older than the Air and Space 
Museum and much more likely to have been constructed with a far 
greater quantity and variety of asbestos materials for purposes 
of fireproofing, surfacing, thermal insulation, and other uses. 
And due to their age, they might be in worse shape and more 
easily disturbed.
    I request that my entire statement be put into the record, 
and I would be happy to answer any questions that the committee 
members might have.
    [The statement of Mr. August follows:]

    [GRAPHIC] [TIFF OMITTED] T0806A.014
    
    [GRAPHIC] [TIFF OMITTED] T0806A.015
    
    [GRAPHIC] [TIFF OMITTED] T0806A.016
    
    [GRAPHIC] [TIFF OMITTED] T0806A.017
    
    [GRAPHIC] [TIFF OMITTED] T0806A.018
    
    [GRAPHIC] [TIFF OMITTED] T0806A.019
    
    [GRAPHIC] [TIFF OMITTED] T0806A.020
    
    [GRAPHIC] [TIFF OMITTED] T0806A.021
    
    [GRAPHIC] [TIFF OMITTED] T0806A.022
    
    [GRAPHIC] [TIFF OMITTED] T0806A.023
    
    [GRAPHIC] [TIFF OMITTED] T0806A.024
    
    [GRAPHIC] [TIFF OMITTED] T0806A.025
    
    [GRAPHIC] [TIFF OMITTED] T0806A.026
    
    [GRAPHIC] [TIFF OMITTED] T0806A.027
    
    [GRAPHIC] [TIFF OMITTED] T0806A.028
    
    The Chairman. Thank you. Mr. Chute.

   STATEMENT OF DANIEL O. CHUTE, CIH, CSP, PRESIDENT, ATRIUM 
            ENVIRONMENTAL HEALTH AND SAFETY SERVICES

    Mr. Chute. Thank you. I have been invited to provide 
testimony to summarize my views and opinions on the management 
of asbestos containing materials in the Smithsonian Air and 
Space Museum, and my testimony will be based upon my education 
and experience gained in over 30 years of professional practice 
in evaluation and control of asbestos in both public and 
commercial buildings, and my review of pertinent materials on 
the Smithsonian's practices and procedures which have been 
provided to me by committee staff in advance of this hearing. I 
have organized my testimony to address the general requirements 
and standard practices for asbestos management in public 
buildings, asbestos management practices and procedures as 
documented by the Smithsonian for their Air and Space Museum, 
and then a comparison of those to see how the Smithsonian 
measures up to current practices.
    Well, first, of course, asbestos is a common ingredient in 
many materials found in buildings constructed prior to 1980. 
That would include things such as floor tile, pipe insulation, 
wall materials, it is possible roofing and so forth. But in 
order to prevent illnesses which may be associated with 
asbestos exposure, the handling, removal and disposal of 
asbestos has been subject to strict Federal regulations 
implemented by both the EPA and OSHA since the early 1970s. 
Many States, localities, agencies and private employers have 
enacted much stricter requirements for task specific items 
which they may encounter.
    Also, it is important to note that the presence of asbestos 
in a building does not mean that the health of building 
occupants is in danger. As long as asbestos containing 
materials remain in good condition and are not disturbed or 
damaged, exposure is unlikely. And in fact the U.S. EPA 
generally recommends in place management and maintenance to 
prevent exposure in areas where asbestos is discovered. Don't 
mess with it.
    Most facilities today follow a site specific written 
asbestos management plan with assigned duties and 
responsibilities. The U.S. General Services Administration has 
cited the key elements of an asbestos management plan to 
include manage the asbestos in place as long as it is in good 
visual condition, abating or removing asbestos that is damaged 
or subject to disturbance, comply with applicable OSHA and EPA 
regulations and standards for the handling, transportation and 
disposal of the material, use products that do not contain 
asbestos for new construction and renovation or repair, require 
that trained and qualified persons do the work in your 
facilities, and then also promote openness in communication 
with your customers, regulatory agencies, the public and other 
interested parties during renovation, repair or other 
activities which may encounter asbestos.
    Now, in a review of the Smithsonian's policies they have a 
very, as their Director cited in his earlier testimony, they 
have a comprehensive safety manual which includes chapter 22 
for asbestos. The asbestos control procedure in the Smithsonian 
safety manual appears to be very detailed and comprehensive and 
has defined roles and responsibilities for building managers, 
for safety coordinators, supervisors, their employees, 
facilities management design and construction offices, the real 
estate division and the health, safety and environmental 
management group. In addition, they have a series of 
attachments to that which have site or task specific procedures 
outlined defining training requirements and checklists for the 
safe work practices on regular routine operations which they 
may encounter.
    It is also important to note that all levels of training 
require an annual update and review within their policy.
    In summary, this evaluation has compared Smithsonian policy 
for asbestos management and control to the regulations and 
practices in place for similar facilities in a workplace or 
construction setting. Based upon a review of the written 
Smithsonian policies, reports and materials provided by 
committee staff, a comparative analysis of applicable 
regulations and standards and my 30 years of professional 
experience in this area of technical specialization, I found 
the Smithsonian Institution asbestos control policy as written 
to be quite complete and comprehensive. Please be aware that 
this evaluation has not included an on-site evaluation in their 
facilities or audits to determine how effectively these 
policies have been implemented in daily practice. But by fully 
implementing an asbestos control procedure as written in their 
safety manual, the Smithsonian should be able to maintain a 
safe and healthy work environment for its employees and the 
general public that is consistent with the current standards 
and practices in the field.
    [The statement of Mr. Chute follows:]

    [GRAPHIC] [TIFF OMITTED] T0806A.029
    
    [GRAPHIC] [TIFF OMITTED] T0806A.030
    
    [GRAPHIC] [TIFF OMITTED] T0806A.031
    
    [GRAPHIC] [TIFF OMITTED] T0806A.032
    
    [GRAPHIC] [TIFF OMITTED] T0806A.033
    
    [GRAPHIC] [TIFF OMITTED] T0806A.034
    
    [GRAPHIC] [TIFF OMITTED] T0806A.035
    
    [GRAPHIC] [TIFF OMITTED] T0806A.036
    
    [GRAPHIC] [TIFF OMITTED] T0806A.037
    
    [GRAPHIC] [TIFF OMITTED] T0806A.038
    
    The Chairman. Thank you. Mr. Urban.

STATEMENT OF GARY L. URBAN, VICE PRESIDENT, AEROSOL MONITORING 
                           & ANALYSIS

    Mr. Urban. Good afternoon. My name is Gary Urban. I am a 
Vice President for Aerosol Monitoring & Analysis, which is 
located here in Hanover, Maryland. Aerosol Monitoring & 
Analysis has been in business for 27 years providing 
environmental industrial hygiene and health and safety 
consulting and training services. We are a full service company 
whose capabilities include consulting, laboratory and training 
services, including but not limited to asbestos. Our staff 
include a certified industrial hygienist, a certified safety 
professional, certified hazardous materials manager, as well as 
EPA accredited asbestos inspectors, management planners and 
project designers who provide multi-functional environmental 
consulting services, design support and hazardous materials 
management to our clients. Our firm provides services to 
government, industry, building owners and managers, architects, 
engineers and contractors.
    I have been employed by the firm for the past 17 years, 
during which time I have provided consulting services to such 
government agencies as the General Services Administration, 
Architect of the Capitol, Smithsonian, and DOD. Professionally 
I am a certified hazardous materials manager with 21 years of 
experience in hazardous materials management, primarily 
involving asbestos surveys, asbestos abatement design, asbestos 
abatement remediation oversight and asbestos management and 
asbestos operations and maintenance programs. I am trained and 
licensed as an EPA asbestos inspector, management planner, 
supervisor competent person and project designer.
    During the past several years our firm has provided a 
variety of consulting and laboratory and training services to 
the Smithsonian Institution at several facilities. Past 
projects have included work at the Castle building, the Arts 
and Industries building, the Garber Facility, as well as the 
Museum Support Center, to name a few. These projects involved 
inspection, testing, design for abatement, hazard assessments, 
including but not limited to asbestos.
    Recently our firm was awarded a contract in August of 2008 
to reassess Smithsonian facilities to provide an update to 
existing asbestos survey reports in a majority of the 
buildings, facilities, and museums. The work involves a review 
of the available asbestos documentation for each specific site, 
field inspections to verify site conditions pertaining to the 
presence, quantity and location and condition of the previously 
identified asbestos materials. The work also includes 
assessing, documenting, and in some cases testing additional 
suspect materials not previously identified so as to provide a 
more complete picture of the asbestos situation within a given 
facility.
    At the completion of the inspection we provide a summary 
report of findings, results of any testing conducted, an 
electronic copy of the available documentation and input the 
field inspection data into an SI-generated geospatial database 
that interfaces with the SI facility center version 8I. This 
database will enable SI to better manage the presence, quantity 
and location of asbestos within a given facility. I am the 
project manager for this contract and serve as the single point 
of contact for the Smithsonian Institution. This assignment has 
provided me with a unique and extensive knowledge of the 
challenges posed by the Smithsonian, the types and locations 
and extent of asbestos materials in the institution, as well as 
insights on how these materials can best be managed to ensure 
safety to staff, contractors and visitors.
    In most recent past our firm provided asbestos general area 
air monitoring for SI at the National Air and Space Museum on 
the Mall in response to a claim that the air was unsafe as 
asbestos was identified in bulk and settled dust samples 
collected by others. At the time of our testing we provided 
evidence that the airborne fiber concentration observed 
throughout the museum in both public and nonpublic spaces 
identified fiber concentrations of less than or equal to 0.005 
fibers per cc of air by phase contrast microscopy. For 
comparison purposes the OSHA has established a permissible 
exposure limit of .1 fibers per cc over an eight-hour time 
weighted average. Furthermore, the reoccupancy level for an 
asbestos removal project where PCM is utilized is less than 
0.01 fibers per cc.
    Thank you for inviting me here today. I will be pleased to 
address any questions that you have on what I have stated here. 
Thank you.
    [The statement of Mr. Urban follows:]

    [GRAPHIC] [TIFF OMITTED] T0806A.039
    
    [GRAPHIC] [TIFF OMITTED] T0806A.040
    
    The Chairman. Thank you. Mr. Brennan.

  STATEMENT OF WILLIAM M. BRENNAN, EXECUTIVE VICE PRESIDENT, 
                  TURNER CONSTRUCTION COMPANY

    Mr. Brennan. Mr. Chairman, thank you, Mr. Lungren and 
Harper and attendees. Turner was engaged in 2006 to undertake 
the renovation of the Star Spangled Banner exhibit, which as 
Mr. Clough described earlier was coincident with their starting 
to establish----
    The Chairman. I am sorry, could you push your mike a little 
further toward you maybe.
    Mr. Brennan [continuing]. Coincident with their beginning 
to upgrade and expand on their OSHA safety procedures and 
manual. And we were glad to participate along with a number of 
other contractors to bring to them our experience of 105 years 
in the business from the construction point of view as it 
relates to operating in an existing facility such as the 
Smithsonian.
    So we worked closely with the Smithsonian staff, our own 
professional designers and architects and specialty 
subcontractors to participate in writing an overall program, as 
well as doing an investigation of the space that we were going 
to conduct the renovation work in. We did not investigate 
outside of our defined construction area, but we did go in and 
investigate the areas that we were going to be contacting to 
determine the types of materials that we would encounter.
    Throughout the complete development of that plant I never 
ever felt we did not have the complete highest level of support 
from the institution toward safety of our staff, our employees, 
the tradesmen, the employees of the Smithsonian, and the 
eventual visitors to the facility. Safety was always the 
paramount driver to the protocols and procedures that we 
developed.
    I would like to just give you a quick overview of the 
methodology that we used in arriving at the procedures, manuals 
and policies that we employed throughout the construction 
period.
    So we worked closely with Smithsonian, we employed an 
accredited licensed professional consulting firm named Maytech 
to come in and help investigate and identify all the materials 
throughout the facility. Part of our procedures were to also 
identify subcontractors that would actually do the abatement. 
All of those firms had to be OSHA certified, EPA accredited, 
licensed to do business in the District of Columbia, and all 
the credentials had to be at the highest level of standards. We 
then went on to set up a policy for selecting subcontractors 
that were knowledgeable about working in a facility such as 
this. It is an occupied facility, it is a renovation. We wanted 
contractors who had the experience and expertise, having done 
similar complex renovation work such as this in a building that 
we knew was going to have hazardous materials of a variety of 
types.
    In the survey, which took about two months in 2006, we 
thought we might encounter asbestos, we thought we might 
encounter lead, we thought we might encounter PCBs, and we 
encountered two of the three. We did not find any PCBs but we 
did find a variety of lead containing and asbestos containing 
materials. So those were the substances around which we wrote 
the protocols and procedures that we would use throughout the 
construction period when and if these substances were 
encountered. We estimated that we might encounter 40 to 50 
episodes of containment materials and the protocol in 
construction is, as the chairman has stated, if you are not 
going to disrupt it leave it alone. But if you are going to 
disrupt it then there is a protocol for what the methodology 
is, the type of bagging, the type of masking, the type of 
safing off, the type of shutting down air system procedures and 
protocols that have to be employed. The testing, professional 
testing firm then comes in and certifies that the area is clean 
after the abatement is done, and at that point and only that 
point are our people engaged to go back into the area and do 
traditional construction work.
    Around that time frame there were a variety of safing off 
and restrictions, and hanging of polyethylene and putting 
various types of fans and filters in place to positively or 
negatively pressurize the areas that are being worked in, so as 
to completely prevent the material from getting outside the 
containment abatement area.
    All of that was written up. We preselected subcontractors 
who had experience exercising protocol such as this. We wrote 
into their subcontract a very rigorous procedure should they 
encounter any materials such as tile or mastic, what they were 
to do, and I will walk through that in a second. But every 
award of a subcontract we sat down with their senior management 
and made sure that they understood the procedures and properly 
priced them and could carry them out effectively. We made sure 
that they would have an OSHA 30-hour certified professional on-
site at any time when their staff was working. We set up 
training programs for each individual employee who was going to 
come on the job to make sure each employee understood the 
requirements and the protocols.
    And to summarize it, basically every subcontractor had a 
policy in his contract which stated the following: If you 
should encounter any material which you believe could be either 
lead or asbestos or in any way hazardous material, you are to 
immediately stop work, notify one of our supervisors or one of 
the owner's supervisors or the on-site asbestos containment 
professional. We then would go in, test it, if it was a 
hazardous material, we would set up the appropriate protocols 
to abate it, come back within a few days and verify that the 
containment had worked, there were no extraneous fibers left in 
the area, and then the professional would say the area is clear 
for you to go back in and work. And that was a part of every 
subcontract.
    To summarize, as I said, throughout both the development of 
these procedures, as well as the implementation, as I said, we 
thought we might encounter 30 or 40, we ended up encountering 
250 situations that required abatement. And despite excessive 
additional costs on the institution's part they never once 
backed off, holding us to the highest standards of safety, 
notification, abatement, adjust the schedule later on, but 
don't compromise any of the procedures as were set up in the 
manual.
    Thank you.
    The Chairman. Thank you. Thank all of you. I would like to 
ask just a few questions. Mr. August, what kind of tests are 
the most reliable tests in your opinion to find whether a 
building has asbestos or not in it?
    Mr. August. Well, there are different tests for different--
--
    The Chairman. I am sorry, is there a way of doing that 
without exposing it? Is there a way of doing it without 
bothering it? Because when asbestos is concealed it could 
probably stay that way as long as it is not interrupted, 
bothered, hit or broken into.
    Mr. August. Right. There are different tests for different 
situations. If you want to find out, for example, in this room 
if any of these walls, the ceiling, the floor tiles or whatever 
have asbestos, you can, number one, check to see the records 
and maybe that will tell you, if those are available. Or if you 
have to actually sample, then what we do is called bulk 
sampling. In a controlled way we take a core sample all the way 
through the material. And then that is sent to a laboratory 
where they will use--there are two types of, I don't want to 
get into the technicalities, there are two types of 
microscopes. There is polorized light microscopy, which was 
referred to, and there is a much more sophisticated kind, which 
is transmission electron microscopy, and that is the more 
definitive test. But that will tell you whether or not there is 
asbestos present. And the legal definition is point one 
percent. If that amount is present, then the material is 
considered asbestos containing.
    I mention another type of testing though, which is if you 
want to find out what somebody is exposed to then you have to 
find out what is in the air. And the personal sampling device 
is the most useful because that is taking air from right where 
somebody is breathing while something is happening. So that is 
going to give you the most accurate exposure monitoring.
    The Chairman. Thank you.
    Mr. Chute, what in your opinion is the top priority that 
the Smithsonian should focus on to ensure the safety of its 
workers, the safety of its construction people and the safety 
of its guests?
    Mr. Chute. I think by adhering to the written policies that 
are in place they would be able to demonstrate that they are 
properly following I guess the goals and also the legal intent 
of those programs; that is, make sure they have proper 
documentation, that people are trained, that they receive the 
right level of training, and also having good access to the 
monitoring data to show that they have done the correct type of 
testing to identify the location of asbestos and verify that 
air quality meets current standards.
    The Chairman. Thank you, sir.
    Mr. Urban, you are looking at our Smithsonian buildings as 
we speak?
    Mr. Urban. Yes, sir.
    The Chairman. How many have you looked into?
    Mr. Urban. Right now, we have gone through, I believe, 
nine, maybe eight. But we are on the ground right now.
    The Chairman. Any results you can share with us?
    Mr. Urban. You know, in the beginning, we had a 1992 report 
which we were going to go through. And, quite frankly, I have 
been pleasantly surprised that a lot of the Versar reports are 
fairly complete.
    Now, we do find additional materials, and that is standard 
practice in a lot of the inspections that we conduct. A lot of 
the materials have been removed, and that is what we are doing.
    We are going to be able to provide Smithsonian--in my 
little speech there, I indicated the geospatial database, which 
basically will enable the Smithsonian to go room by room and 
identify the presence, quantity, and location of the materials 
that are in each one of those rooms. So that is a big deal 
right there, you know, to communicate that hazard to the 
employees and contractors alike.
    The Chairman. Just to be fair, Mr. Brennan, what do you do 
when you encapsulate--I mean, I know what you do. When you 
encapsulate--it is your job to encapsulate it also--and you 
encapsulate it, you bag it. Do you take that to a special 
recycling area?
    Mr. Brennan. Yes.
    The Chairman. And let me tell you why. I have been involved 
in construction myself. And I know that early on you 
encapsulate, you put it into a certain type of bag that is 
provided to you, and they take it to a certain disposal. I see 
those bags laying in the disposal, just laying there and 
getting broken up, getting banged around by other people 
dumping other stuff on there.
    Is that the case? I mean, I am not saying you do that. But 
when it is left at some of these disposal plants, what are they 
supposed to do, burn it? What happens with it?
    Mr. Brennan. Congressman, I am not sure how they actually 
treat it at the plants. Our job is to make sure it gets to an 
EPA-certified disposal facility.
    And it is a challenging process. It is a difficult business 
to monitor. But our company, we go through bills of lading, 
sign offs, verification. We have an online system where the 
actual receipt of the materials at the disposal, they have to 
log in and confirm the bill of lading, the proper tag numbers 
so that we can verify that what left our site, got there. We 
measure comparable weights of the vehicle and tonnage in the 
truck to make sure it wasn't half here, half there.
    It is something that you have to create a culture of 
continuous attention to detail and monitoring and just 
entertain no transgressions, zero tolerance for any sort of 
transgressions of the rule. Once you have good policies set up, 
you have to enforce them rigorously.
    The Chairman. Does anyone know what happens to them? How 
they dispose of them?
    Mr. Urban. Well, after an abatement is completed, they bag 
the waste, and it is taken to a landfill, at which time the 
landfill covers up the material in specified cells.
    The Chairman. Do they mix it with all the other landfills? 
Are they supposed to mix it with all the other landfills?
    Mr. Urban. My understanding--and I probably shouldn't even 
speak on it because I am not 100 percent sure, but they go in 
cells and designated areas of permitted landfills.
    The Chairman. You are shaking your head.
    Mr. August. I don't know the exact procedures, but there 
are registered places within landfills that are to receive it. 
It doesn't just go out with the trash. So presumably it is 
being segregated and handled in a way that it really is buried.
    The Chairman. Presumably. But there are only certain 
landfills or certain disposals that are qualified to receive?
    Mr. August. Yes. There is another regulation, the NESHAPs, 
the air pollution standard. That regulation has been in place 
for a long time. And before any abatement takes place even, 
there has to be a notification to EPA of what is going to 
happen, how dust is going to be controlled, how much is going 
to be removed, what type of material, and then how it is going 
to be disposed of. And then you have to get a permit before you 
can even take it there.
    Am I correct, from the people in the field?
    That you have NESHAPs regulations, so that you have a way 
to track, even before the work begins, that in fact it is being 
disposed of according to the regulations.
    Mr. Brennan. The trucking company has to be permitted and 
licensed, as does the designated landfill. It has to be 
permitted all the way along. The remover, the trucker, the 
disposal landfill all have special permits.
    The Chairman. Is that the same for residential buildings?
    Mr. Brennan. Yes.
    The Chairman. Thank you.
    Any questions from Mr. Lungren?
    Mr. Lungren. I will just ask a couple.
    And I hope folks down there didn't think by my closing my 
eyes or anything, I was not paying attention. For some reason, 
these lights are very irritating, and we are going to have to 
do something about the environment of the lights in here. 
Because, otherwise, I will be sitting up here with sunglasses. 
And that is not a California deal, it actually hurts my eyes. 
And we were told they couldn't do anything about it. So we will 
find out how to do that.
    For all of you, based on your backgrounds in environmental 
health and safety in the workplace--I think you were all here 
when Secretary Clough testified--is there anything that you 
would add to what he outlined in terms of what the Smithsonian 
is doing and he intends it to do?
    Mr. August.
    Mr. August. Yeah, I was actually quite impressed with the 
seriousness with which he took the situation. And I agree with 
the other panelists that, in fact, on paper, there are very 
good procedures in place, and, in fact, if they had been 
followed, we wouldn't be having these hearings.
    But his problem is, as you mentioned, the cleaning up after 
the elephant. I don't know how many years this has been going 
on, where the policy may not have been worth the paper it was 
written on.
    Mr. Lungren. But based on what he said, in terms of what he 
outlined, you would believe that that sounds responsible?
    Mr. August. I would add this to what he has done. He 
mentioned something to the effect that employees could visit--
or should visit the employee health center. I would go a step 
further, and I would look at records of current and even former 
employees at the Air and Space Museum, as well as other 
Smithsonian facilities, and I would look at their job 
classifications and their years of service, and I would set up 
a screening program to find out, in fact, how many other Mr. 
Pullmans there are.
    I fear that he is the tip of the iceberg and that these 
people are going to fall through the cracks. They are going to 
go to their personal doctors, they are going to file their own 
insurance claims----
    Mr. Lungren. So you would recommend setting up some sort of 
formal screening process to see if there is anybody else out 
there.
    Mr. August. Absolutely, absolutely. And that is because all 
the sampling that is being done is fine for prospectively, but 
we have no way retrospectively to go back and find out. All we 
have, unfortunately, are signs of exposure, which is disease.
    Mr. Lungren. Anyone else have any recommendations beyond 
what Secretary Clough said?
    Mr. Brennan. The policy is great. Our business, just like 
his staff, you have constant turnover every year. You have 
people coming into the museum, or pedestrians. The enforcement 
aspect of it is really critical. You can train somebody one 
day, and the next day somebody else is in that position doing 
the same job that you have to train all over again. It is just 
ongoing. It is a cultural thing that you have to create so that 
everybody is conscious of what needs to be done. That is really 
what supports a healthy policy.
    Mr. Lungren. Thank you.
    Mr. Chute.
    Mr. Chute. Well, again, it appears that the Secretary 
cannot speak back into the past for what might have happened in 
years past, but, from listening to both Mr. Urban and Mr. 
Brennan, it appears that there has been a history of close 
attention to asbestos, at least during design, construction, 
and various phases of abatement. So possibly the Secretary 
would be able to retrieve some of the historical data that 
might be compartmentalized in the design and construction and 
the other divisions, which might be able to paint a more 
complete picture of how things really are.
    Because, at this point, nobody can really tell you what the 
air fiber levels were one day 5 years ago or 10 years ago. But 
if you have a demonstrated history of monitoring at various 
phases of design and construction which show you that these 
things have been well-controlled, you may be in a better 
position to respond as an organization to say, ``We have 
monitored it at various phases along the way, and this shows a 
history of effective control,'' which might soothe some of the 
concerns about some of the employees, if they are able to 
demonstrate that level of positive enforcement of the policies.
    Mr. Lungren. Mr. Brennan, I think I heard, in your 
testimony, you say something to the effect that you expected to 
maybe have 40 instances where you would run into asbestos, and 
you had multiples of that.
    Mr. Brennan. 250.
    Mr. Lungren. To what do you attribute that difference in 
assessment versus what actually occurred? And were there some 
real surprises over and above the number?
    Mr. Brennan. There were two things that contributed.
    One, at the point in time that we did the above-the-ceiling 
investigation, we were still in the process of designing the 
actual work that we were going to install. So where the 
drawings may have said we were going to tie into a piece of 
ductwork here, when we actually got the design completed maybe 
we were 10 feet away. And that 10 feet could have meant a 
difference between an incident and not an incident.
    The second was a major surprise, in that all the steel 
beams in the building were encased in concrete. And we looked 
up at that and saw no exposure whatsoever. And when we got in 
there and we starting taking the concrete off to attach new 
steel, on the steel was lead-based paint underneath the 
concrete. So that alone was probably 60 or 70 of the incidents.
    And the third one was a lead-based paint that we looked 
at--it was gold leaf, actually. And we thought it was what is 
called a peel-and-stick removal. Just put this paper over it, 
the adhesive peels it off, and you take it and dispose of it. 
And it turned out that the paint had actually impregnated the 
underlying plaster. It is now a dust-laden material. So it 
became a complete drop the tarps, negative pressure--a much 
more complicated incident to deal with.
    So those are the three areas that I would say magnified it 
even beyond our expectations. A complex renovation like that, 
phase by phase, you can't go in all areas at the same time, we 
knew it would be tricky, but it more than doubled and caught us 
by surprise.
    Mr. Lungren. Thank you very much.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Thank all of you for your testimony. Thank you for your 
interest, your insight, and your expertise. We do appreciate 
it. And we do appreciate you being here today. So thank you.
    I would like to now ask unanimous consent to place various 
materials in the record. I ask unanimous consent to place in 
the hearing record reports by Aerosol Monitoring & Analysis, 
Inc., a document dated January 6, 2009; a report by Kynoch 
Environmental Management dated December 1, 2008; and a report 
by Versar dated November 25, 1992.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T0806A.041
    
    [GRAPHIC] [TIFF OMITTED] T0806A.042
    
    [GRAPHIC] [TIFF OMITTED] T0806A.043
    
    [GRAPHIC] [TIFF OMITTED] T0806A.044
    
    [GRAPHIC] [TIFF OMITTED] T0806A.045
    
    [GRAPHIC] [TIFF OMITTED] T0806A.046
    
    [GRAPHIC] [TIFF OMITTED] T0806A.047
    
    [GRAPHIC] [TIFF OMITTED] T0806A.048
    
    [GRAPHIC] [TIFF OMITTED] T0806A.049
    
    [GRAPHIC] [TIFF OMITTED] T0806A.050
    
    [GRAPHIC] [TIFF OMITTED] T0806A.051
    
    [GRAPHIC] [TIFF OMITTED] T0806A.052
    
    [GRAPHIC] [TIFF OMITTED] T0806A.053
    
    [GRAPHIC] [TIFF OMITTED] T0806A.054
    
    [GRAPHIC] [TIFF OMITTED] T0806A.055
    
    [GRAPHIC] [TIFF OMITTED] T0806A.056
    
    [GRAPHIC] [TIFF OMITTED] T0806A.057
    
    [GRAPHIC] [TIFF OMITTED] T0806A.058
    
    [GRAPHIC] [TIFF OMITTED] T0806A.059
    
    [GRAPHIC] [TIFF OMITTED] T0806A.060
    
    [GRAPHIC] [TIFF OMITTED] T0806A.061
    
    [GRAPHIC] [TIFF OMITTED] T0806A.062
    
    [GRAPHIC] [TIFF OMITTED] T0806A.063
    
    [GRAPHIC] [TIFF OMITTED] T0806A.064
    
    [GRAPHIC] [TIFF OMITTED] T0806A.065
    
    [GRAPHIC] [TIFF OMITTED] T0806A.066
    
    [GRAPHIC] [TIFF OMITTED] T0806A.067
    
    [GRAPHIC] [TIFF OMITTED] T0806A.068
    
    [GRAPHIC] [TIFF OMITTED] T0806A.069
    
    [GRAPHIC] [TIFF OMITTED] T0806A.070
    
    [GRAPHIC] [TIFF OMITTED] T0806A.071
    
    [GRAPHIC] [TIFF OMITTED] T0806A.072
    
    [GRAPHIC] [TIFF OMITTED] T0806A.073
    
    [GRAPHIC] [TIFF OMITTED] T0806A.074
    
    [GRAPHIC] [TIFF OMITTED] T0806A.075
    
    [GRAPHIC] [TIFF OMITTED] T0806A.076
    
    [GRAPHIC] [TIFF OMITTED] T0806A.077
    
    [GRAPHIC] [TIFF OMITTED] T0806A.078
    
    [GRAPHIC] [TIFF OMITTED] T0806A.079
    
    [GRAPHIC] [TIFF OMITTED] T0806A.080
    
    [GRAPHIC] [TIFF OMITTED] T0806A.081
    
    [GRAPHIC] [TIFF OMITTED] T0806A.082
    
    [GRAPHIC] [TIFF OMITTED] T0806A.083
    
    [GRAPHIC] [TIFF OMITTED] T0806A.084
    
    [GRAPHIC] [TIFF OMITTED] T0806A.085
    
    [GRAPHIC] [TIFF OMITTED] T0806A.086
    
    [GRAPHIC] [TIFF OMITTED] T0806A.087
    
    [GRAPHIC] [TIFF OMITTED] T0806A.088
    
    [GRAPHIC] [TIFF OMITTED] T0806A.089
    
    [GRAPHIC] [TIFF OMITTED] T0806A.090
    
    [GRAPHIC] [TIFF OMITTED] T0806A.091
    
    [GRAPHIC] [TIFF OMITTED] T0806A.092
    
    [GRAPHIC] [TIFF OMITTED] T0806A.093
    
    [GRAPHIC] [TIFF OMITTED] T0806A.094
    
    [GRAPHIC] [TIFF OMITTED] T0806A.095
    
    [GRAPHIC] [TIFF OMITTED] T0806A.096
    
    [GRAPHIC] [TIFF OMITTED] T0806A.097
    
    [GRAPHIC] [TIFF OMITTED] T0806A.098
    
    [GRAPHIC] [TIFF OMITTED] T0806A.099
    
    [GRAPHIC] [TIFF OMITTED] T0806A.100
    
    [GRAPHIC] [TIFF OMITTED] T0806A.101
    
    [GRAPHIC] [TIFF OMITTED] T0806A.102
    
    [GRAPHIC] [TIFF OMITTED] T0806A.103
    
    [GRAPHIC] [TIFF OMITTED] T0806A.104
    
    [GRAPHIC] [TIFF OMITTED] T0806A.105
    
    [GRAPHIC] [TIFF OMITTED] T0806A.106
    
    [GRAPHIC] [TIFF OMITTED] T0806A.107
    
    [GRAPHIC] [TIFF OMITTED] T0806A.108
    
    [GRAPHIC] [TIFF OMITTED] T0806A.109
    
    [GRAPHIC] [TIFF OMITTED] T0806A.110
    
    [GRAPHIC] [TIFF OMITTED] T0806A.111
    
    [GRAPHIC] [TIFF OMITTED] T0806A.112
    
    [GRAPHIC] [TIFF OMITTED] T0806A.113
    
    [GRAPHIC] [TIFF OMITTED] T0806A.114
    
    [GRAPHIC] [TIFF OMITTED] T0806A.115
    
    [GRAPHIC] [TIFF OMITTED] T0806A.116
    
    [GRAPHIC] [TIFF OMITTED] T0806A.117
    
    [GRAPHIC] [TIFF OMITTED] T0806A.118
    
    [GRAPHIC] [TIFF OMITTED] T0806A.119
    
    [GRAPHIC] [TIFF OMITTED] T0806A.120
    
    The Chairman. And I ask unanimous consent to keep the 
record open to receive additional statements and material, to 
include answers to additional written questions members may 
wish to submit to the Smithsonian or to our witnesses present 
today.
    Thank you, appreciate it.
    This hearing is now adjourned.
    [Whereupon, at 3:35 p.m., the committee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T0806A.121
    
    [GRAPHIC] [TIFF OMITTED] T0806A.122
    
    [GRAPHIC] [TIFF OMITTED] T0806A.123
    
    [GRAPHIC] [TIFF OMITTED] T0806A.124
    
    [GRAPHIC] [TIFF OMITTED] T0806A.125
    
    [GRAPHIC] [TIFF OMITTED] T0806A.126
    
    [GRAPHIC] [TIFF OMITTED] T0806A.127
    
    [GRAPHIC] [TIFF OMITTED] T0806A.128
    
    [GRAPHIC] [TIFF OMITTED] T0806A.129
    

</pre></body></html>
